No.

 

 

IN THE SUPREME COURT OF THE UNITED STATES

DEMETRIUS MORANCY,
Petitioner,
v.
UNITED STATES OF AMERICA,

Respondent.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
For the Eleventh Circuit

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

The Petitioner, Demetrius Morancy, asks leave to file the enclosed Petition for
Writ of Certiorari without prepayment of costs and to proceed in forma pauperis in
accordance with Supreme Court Rule 39. The filing of this petition is a continuation
of the representation of the Petitioner under a Criminal Justice Act (18 U.S.C. §
3006A) appointment of undersigned counsel, by the United States District Court for
the Middle District of Florida.

WHEREFORE, Petitioner Demetrius Morancy prays for leave to proceed in

forma pauperis.
Respectfully submitted,

Jn Mtb—

Dane K. Chase, Esquire
Florida Bar Number: 0076448
